           Office of Inspector General




July 1, 2004

ANDERSON HODGES, JR.
MANAGER, ATLANTA DISTRICT

SUBJECT: 	Audit Report – Self-Service Vending Program – Atlanta District
         (Report Number DR-AR-04-002)

This is one of a series of audit reports on the Self-Service Vending Program in the
Southeast Area. The report presents the results of our self-initiated audit on the
Self-Service Vending Program in the Atlanta District (Project Number 04WG003DR001).
The information in this district report will be included in a report to the Southeast Area
Vice President.

                                         Background
The Self-Service Vending Program, implemented in October 1964, is one of the Postal
Service’s major programs. It provides Postal Service customers with a convenient
alternative for purchasing stamps and other basic Postal Service products after
business hours and without the need to stand in line during business hours.
Nationwide, the Postal Service maintains approximately 30,000 vending machines
(27,000 self-service postal centers and 3,000 other types of vending equipment) that
generated over $1.9 billion in revenue during fiscal years (FY) 2001 through 2003. The
Southeast Area had 4,298 pieces of vending equipment that generated over $109
million in revenue during FY 2003, of which the Atlanta District maintained 511 (12
percent of the total area) machines that generated over $16.3 million (15 percent of the
total area) in revenue in the same year.

                              Objective, Scope, and Methodology
The objective of our audit was to determine whether the Self-Service Vending Program
is effectively and efficiently meeting program goals of increasing revenue and reducing
operating costs. Specifically, in this review, we determined whether Self-Service
Vending Program managers have effectively redeployed vending equipment that does
not meet minimum revenue requirements in order to maximize revenue and
discontinued the use of obsolete vending equipment. Of the 511 vending machines
operating in the Atlanta District, 64 were classified as obsolete based on Postal Service



   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
Self-Service Vending Program –                                                                         DR-AR-04-002
 Atlanta District


guidance, while the remaining 447 were classified as current equipment. During our
audit, we visited Postal Service facilities, interviewed managers and employees,
reviewed documentation and applicable policies and procedures, and analyzed data in
the Postal Service Vending Equipment Sales and Service System for FYs 2002 through
2003 to identify obsolete equipment and equipment that did not meet the minimum
revenue requirements.1 Although we relied on data obtained from the Vending
Equipment Sales and Service System, we did not test the validity of the data and
controls over the system. Audit work associated with the Atlanta District was conducted
from December 2003 through June 2004, in accordance with generally accepted
government auditing standards and included such tests of internal controls as were
considered necessary under the circumstances. We discussed our observations and
conclusions with appropriate management officials and included their comments, where
appropriate.

                                         Prior Audit Coverage
We did not identify any prior audits or reviews related to the objective of this review.

                                               Audit Results
Opportunities exist for Atlanta District officials to improve the effectiveness and
efficiency of the Self-Service Vending Program and to meet or exceed program goals of
increasing revenue and reducing operating costs. Specifically, officials could increase
revenue opportunities by redeploying equipment that does not meet minimum revenue
requirements. Further, Atlanta District officials could reduce maintenance and repair
costs by discontinuing the use of obsolete equipment.

Redeployment of Vending Equipment

Atlanta District officials could improve their process for redeploying vending equipment
that does not meet the Postal Service’s minimum revenue requirements. Specifically, in
FY 2003, the Atlanta District may have missed revenue opportunities totaling
approximately $1.1 to $3.4 million by not redeploying vending equipment that did not
meet the Postal Service’s minimum revenue requirements.2 The vending equipment
revenue reports showed that 229 (51 percent) of the 447 machines did not meet
minimum revenue requirements during FY 2003, and district officials did not initiate any
redeployment actions. Average vending equipment sales totaled approximately

1
  Obsolete equipment was not included in the minimum revenue analysis.
2
  For each vending machine, we calculated the shortfall in revenue compared to the established minimum for a
particular machine type and referred to this shortfall as “missed revenue opportunities.” The $1.1 million represents
the minimum total possible missed revenue opportunities after giving consideration to Postal Service guidance, which
requires district officials to review revenue reports and take appropriate actions if a vending machine’s revenue does
not reach plan in three to six accounting periods. The $3.4 million represents the maximum total possible missed
revenue opportunities for the FY 2003 and is calculated by subtracting actual revenues generated from the total of all
machine minimum revenue requirements.




                                                          2
Self-Service Vending Program –                                                 DR-AR-04-002
 Atlanta District


$3.7 million, which was significantly less than the average minimum revenue
requirement goal of $7.2 million.

One of the Self-Service Vending Program’s goals is to increase revenue through the
redeployment of equipment. The Postal Service should redeploy equipment that does
not meet minimum revenue requirements to other locations. Postal Service policy,
Handbook PO-102, Self Service Vending Operational and Marketing Program,
May 1999 (updated with Postal Bulletin revisions through December 25, 2003),
establishes the minimum revenue requirements for the vending machines. The District
Retail Office is responsible for evaluating equipment revenue to find the right location
for the right machine. If self-service vending equipment is located in an area where it is
unable to generate revenue to meet the minimum requirement, the equipment must be
considered for redeployment. If revenue does not meet the minimum requirement in
three to six accounting periods, the District Retail Office should place the equipment on
a list for redeployment; notify any office where changes will be made; prepare a
typewritten or computer-generated notice, approved through the District Retail Office, to
be posted in the lobby informing customers 30 days before removing the equipment;
and complete Postal Service Form 4805, Maintenance Work Order, and move the
equipment to a better location.

District officials did not initiate any redeployment action for the 229 under performing
machines because they did not review vending equipment revenue reports to identify
machines not meeting minimum revenue requirements, nor did they issue low-revenue
letters to notify postmasters. District officials indicated that the Self-Service Vending
Program was not considered high-priority, and limited resources were allocated to the
program. Work efforts were directed to higher priorities such as window sales.
However, during the audit, district officials reviewed the revenue reports and drafted
revenue letters to notify postmasters regarding the revenue performance of
154 machines. Although officials drafted letters to notify the postmasters, the district
could miss revenue opportunities during FY 2004 if management does not take action to
redeploy under performing equipment.

We discussed the results with Atlanta District officials and they agreed that they could
improve their redeployment process for equipment that does not meet the Postal
Service’s minimum revenue requirements.

Recommendation

We recommend the Manager, Atlanta District, direct the Retail Manager to:

1. Review revenue reports to identify under performing equipment; notify postmasters
   of equipment that generates low revenue; give consideration to all feasible
   alternatives; and complete all necessary actions to redeploy under performing
   equipment as often as possible.




                                            3
Self-Service Vending Program –                                                                     DR-AR-04-002
 Atlanta District


Management’s Comments

Management agreed with the finding and recommendation. The Atlanta District Retail
Manager is actively reviewing vending reports, and has identified Post Offices with low
vending revenue. Low revenue generation notices were sent to select Post Offices on
May 13, 2004, and decisions have been made specific to the local office situation. Final
redeployment based on the review will be completed by the end of July 2004. The
process will continue on a quarterly basis to ensure the district remains in compliance
with the finding and recommendation. Management‘s comments, in their entirety, are
included in the appendix of this report.

Evaluation of Management’s Comments

Management comments are responsive to our recommendation. Management’s actions
taken or planned should correct the issues identified in the finding.

Use of Obsolete Equipment

During FY 2003, Atlanta District officials continued to use and incur maintenance and
repair expenses for 64 obsolete machines, although Postal Service policy discontinued
maintenance and repair support for the machines in June 2000.3 Our review of vending
equipment revenue reports showed that 48 (75 percent) of the 64 machines did not
meet minimum revenue requirements during FY 2003. District officials stated that they
continued to use and maintain obsolete equipment because of the potential adverse
impact on customer service since replacement equipment was not available. As a
result, the Atlanta District incurred maintenance and repair expenses in FY 2003, by
continuing to operate and maintain the 64 obsolete machines. We were unable to
determine the amount of repair and maintenance expense associated with the
64 machines because the Postal Service does not capture the data for each machine. 4

Periodically, the Postal Service lists vending equipment as obsolete, meaning that the
equipment has exceeded its expected life cycle and will no longer receive support from
maintenance organizations. All inactive retail vending equipment items must be
reported to the district material management specialist. When retail vending equipment
items are obsolete, or listed as excess, the Postal Service may consider them for
disposal action. Parts from obsolete machines may be salvaged and stored for
maintenance and repair of other compatible equipment. In June 2000, Postal Service
policy listed the obsolete vending equipment that should no longer receive support from
maintenance organizations.


3
  This Maintenance Management Order (MMO) supplements MMO-018-96, dated June 21, 1996, titled -
Discontinuance of Support for Obsolete Vending Machines. This MMO includes discontinuance of support for
recently obsolete models of vending machines announced in the Material Logistics Bulletin (MLB-PP-00-004), issued
on May 18, 2000.
4
  We plan to conduct a future audit on vending equipment maintenance and repair costs.



                                                        4
Self-Service Vending Program –                                              DR-AR-04-002
 Atlanta District


By continuing to use and maintain obsolete machines, the district may incur repair and
maintenance costs that exceed the revenues generated. We recognize management’s
desire to provide customer service; however, because repair and maintenance costs
are not captured, management has no means of assessing whether the benefits of
operating the obsolete equipment outweigh the costs to operate it. We are making no
recommendations to the district regarding this finding. However, we plan to make a
recommendation to Postal Service Headquarters, to address the policy of discontinuing
maintenance and repair support for the obsolete equipment.

We appreciate the cooperation and courtesies provided by your staff. If you wish to
schedule an exit conference, have any questions, or need additional information, please
contact Debra D. Pettitt, Director, Delivery and Retail, at (404) 507-8329 or me at
(703) 248-2300.


/s/ Mary Demory

Mary Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

cc: William J. Brown
    Randy Ford
    Kim J. Amis
    Daryl Pichoff
    Joseph K. Moore




                                           5
Self-Service Vending Program –                        DR-AR-04-002
 Atlanta District


                    APPENDIX. MANAGEMENT’S COMMENTS




                                   6

Self-Service Vending Program –        DR-AR-04-002
 Atlanta District




                                 7

